HHS/OIG-Audit--"Audit of Title IV-E Foster Care Eligibility in California
for the Period October 1, 1988 through September 30, 1991, (A-09-92-00086)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of Title IV-E Foster Care Eligibility in California for the Period
October 1, 1988 through September 30, 1991," (A-09-92-00086)
March 18, 1994
Complete
Text of Report is available in PDF format (4.29 MB). Copies can also
be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final audit report points out several areas in which the California Department
of Social Services (DSS) could make improvements to ensure that Federal eligibility
requirements are met for foster care cases claimed for Federal financial participation
(FFP). Our review of a statistical sample of 805 cases statewide resulted in
the identification of 313 cases for which eligibility for FFP was not supported
for all or part of the payments made on behalf of children. Recommendations
call for DDS to strengthen procedures to improve the flow of information from
social workers to eligibility workers and provide better management over the
eligibility determination process. Recommendations also call for improvements
in procedures for licensing of foster homes, and the system of quality control.